U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543

August 13, 2021

Re:

Johann Brito v. United States,
S.Ct No. 21-5097

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 12, 2021
and placed on the docket on July 15, 2021. The government’s response is due on
August 16, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian H. Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5097
BRITO, JOHANN
USA

WHITMAN MATTHEW DODGE
FEDERAL DEFENDER PROGRAM INC.
101 MARIETTA STREET N.W.
STE. 1500
ATLANTA, GA 30303
4046887530
MATTHEW_DODGE@FD.ORG

